Office of Inspector General


June 18, 2012

MEMORANDUM

FOR:                 USAID/Pakistan Acting Mission Director, Karen Freeman

FROM:                OIG/Pakistan Director, Joseph Farinella /s/

SUBJECT:             Review of USAID/Pakistan’s Cost Estimates for Shipping and Storage
                     (Report No. G-391-12-001-S)

This memorandum transmits our final report on the subject review. This is not an audit report.
In finalizing the report, we carefully considered USAID/Pakistan’s comments on the draft and
have included them in Appendix II.

The report contains two recommendations to help USAID/Pakistan improve various aspects of
estimating shipping and storage obligations. USAID/Pakistan agreed with the recommendations
and with the estimated $480,000 annually and $2.4 million over 5 years that can be put to better
use. After reviewing the information provided by the mission in response to the draft report, we
determined that final actions have been taken on Recommendations 1 and 2.

We want to thank you and your staff for your cooperation and courtesies extended to us during
this review.




U.S. Agency for International Development
American Embassy, Diplomatic Enclave
Ramna 5, Islamabad, Pakistan
www.usaid.gov/oig
SUMMARY
USAID/Pakistan has about 90 employees. When they begin their assignments, they are each
entitled to ship personal effects to Pakistan of up to 2,000 pounds by sea and 1,000 pounds by
air. Employees can also ship a vehicle and place personal goods in storage. The standard
obligation for shipping and storage is $25,000. Actual expenses are much lower.

The purpose of this review was to develop a more reasonable estimate for obligating funds for
the shipping and storage of goods for employees assigned to USAID/Pakistan.

For fiscal years 2008-2010, USAID/Pakistan obligated $2.3 million to fund employee transfers to
Pakistan. The review found that actual shipping and storage expenses for those years were
about $900,000. Thus, the mission spent only about 40 percent of the amount obligated
(page 2). However, obligations and expenses varied widely: some employees used only a few
thousand dollars while others used tens of thousands.

Our analysis and discussions with USAID/Pakistan officials led us to conclude that the standard
obligation should be reduced from $25,000 to $15,000. This reduction would allow the mission
to put an estimated $480,000 yearly and $2.4 million over 5 years to better use. Obligating
$15,000 would still provide a cushion if an employee decided to ship additional goods after
arrival. Also, a procedure to estimate obligations more accurately would allow the mission to
anticipate occasional situations that exceed the standard obligation.

Finally, unliquidated obligations amounted to an estimated $860,000 for fiscal years 2008-2010.
These should be reviewed.

Therefore, we recommend that USAID/Pakistan:

1. Establish and implement a procedure to more accurately estimate obligations for shipping
   and storing goods, and reduce the standard obligation from $25,000 to $15,000, resulting in
   an estimated $480,000 annually and $2.4 million over 5 years that could be put to better use
   (page 2).

2. Review unliquidated obligations of an estimated $860,000 for fiscal years 2008-2010, and
   deobligate funds no longer needed (page 3).

Detailed results appear in the following section. The review’s scope and methodology appear in
Appendix I. Our evaluation of management comments is on page 4, and management
comments appear in Appendix II.




                                                                                             1
REVIEW RESULTS
Expenses Were Less Than Half of
Shipping and Storage Estimates
Chapter 621, “Obligations,” of USAID’s Automated Directives System (ADS 621.3.7) states that
obligations should be made in the exact amount whenever possible and that, when an estimate
is necessary, USAID must provide evidence for the basis of the estimate. ADS 621 further
states that when more precise information is available regarding estimated obligations, excess
amounts should be periodically adjusted.

Employees transferring to Pakistan are eligible to ship personal effects of up to 2,000 pounds by
sea and 1,000 pounds by air. They are also entitled to ship one vehicle and to place items in
storage. To cover the shipping and storage expenses associated with these transfers,
USAID/Pakistan obligates an estimated amount, typically $25,000 though sometimes more,
without documenting the basis of the estimate.

We examined 115 shipping and storage obligations from fiscal years 2008-2010 covering the
transfers of all U.S. direct hires, third-country nationals, and personal services contractors to
post during that period. We found that actual expenses were about 40 percent of obligated
amounts and that a standard obligation of $15,000 would capture all expenses in most cases.
We also found that the mission did not have a procedure to anticipate when needs might
exceed $15,000.

Although individual cases vary, USAID/Pakistan agreed that reducing the standard obligation to
$15,000 would be more realistic. It would allow the mission enough flexibility to cover costs for
individuals who initially use less than this amount but decide after arriving at post to ship
additional items, as employees are authorized to do.

Current mission officials do not know how the mission previously arrived at the $25,000
estimate. Since the review began, USAID/Pakistan has developed employee questionnaires
and initiated a study of shipping costs from various locations. In addition, the mission has
instituted a new procedure for estimating post assignment freight.

By reducing the standard obligation conservatively to $15,000, the mission could put an
estimated $480,000 annually and $2.4 million over 5 years to better use. The mission obligated
$1.4 million in excess of expenses for shipping and storage of goods for fiscal years 2008-2010.
The mission has since deobligated about $540,000. It still has an estimated $860,000 in
unliquidated obligations that should be reviewed for potential deobligation.

Therefore, we recommend the following.

   Recommendation 1. We recommend that USAID/Pakistan establish and implement a
   procedure to more accurately estimate obligations for shipping and storage of goods and
   reduce the standard obligation from $25,000 to $15,000, resulting in an estimated
   $480,000 annually and $2.4 million over 5 years that could be put to better use.




                                                                                               2
Recommendation 2.         We recommend that USAID/Pakistan review unliquidated
obligations of an estimated $860,000 for fiscal years 2008-2010 and deobligate funds no
longer needed.




                                                                                          3
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Pakistan agreed with two recommendations in the report and with the estimated
$480,000 annually and $2.4 million over 5 years that can be put to better use.

After reviewing the information provided by the mission in response to the draft report, we
determined that final actions have been taken on Recommendations 1 and 2.

Recommendation 1. We recommend that USAID/Pakistan establish and implement a
procedure to more accurately estimate obligations for shipping and storage of goods and reduce
the standard obligation from $25,000 to $15,000, resulting in estimated recurring annual savings
of $480,000, and an estimated $2.4 million that could be put to better use over the next 5 years.

USAID/Pakistan agreed with the recommendation and noted it has instituted a new procedure for
estimating post assignment freight. The mission also agreed with the estimated amounts for
reprogramming, although it pointed out that these amounts are subject to change and are not
actual savings. OIG recognizes that the estimated amounts are funds for reprogramming, not
savings. Wording in the text and Recommendation 1 of the final report has been revised
accordingly. In view of the mission’s response, final action has been taken on Recommendation 1.

Recommendation 2. We recommend that USAID/Pakistan review unliquidated obligations of
an estimated $860,000 for fiscal years 2008-2010 and deobligate funds no longer needed.

USAID/Pakistan agreed with the recommendation to review unliquidated obligations of an
estimated $860,000 for fiscal years 2008-2010. The mission has completed its review, which
resulted in a total deobligation of $653,259. Accordingly, final action has been taken on
Recommendation 2.




                                                                                               4
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
USAID’s Office of Inspector General in Pakistan conducted fieldwork for this review in
accordance with Government Auditing Standards, Sections 6.79 through 6.82, by documenting
the planning, fieldwork, and reporting phases of the review and creating a TeamMate project
specifically for this review. Fieldwork was conducted between March 22 and April 16, 2012, at
USAID offices in Islamabad, Pakistan.

We reviewed obligations and disbursements for shipping and storage from 2008 to 2010.

Methodology
The review team interviewed mission officials, reviewed relevant policies (such as ADS 621 and
the State Department’s Foreign Affairs Manual), and inspected financial records of travel
obligations and expenditures provided by USAID/Pakistan.

We analyzed 115 obligations and associated disbursements from fiscal years 2008-2010
covering the transfers of all U.S. direct hires, third-country nationals, and personal services
contractors during that period. We determined the annual savings with the assumption that the
mission would continue at the current staffing level of about 90 and that the trend of 60 to 65
percent annual turnover would continue. Thus, we assumed about 60 transfers per year, of
which 80 percent (or about 48 per year) would need only $15,000 for shipping and storage.
This provides an estimated $480,000 annually and $2.4 million over 5 years that could be put to
better use.




                                                                                             5
                                                                                       Appendix II



MANAGEMENT COMMENTS



MEMORANDUM

Date:          May 24, 2012

To:            Joseph Farinella
               Director OIG/Pakistan

From:          Rodger Garner /s/
               Acting Mission Director USAID/Pakistan

Subject:       Management Comments on the Review of USAID/Pakistan’s Cost Estimates for
               Shipping and Storage

Reference:     Report No. G-391-12-001-S dated May 03, 2012


In response to the referenced draft review report, please find below Mission management
comments on the recommendations included therein.


Recommendation No.1
We recommend that USAID/Pakistan establish and implement a procedure to more
accurately estimate obligations for shipping and storage of goods and reduce the
standard obligation from $25,000 to $15,000 resulting in estimated recurring annual
savings of $480,000, and an estimated $2.4 million that could be put to better use over
the next five years.

Management Comments:
Mission concurs with recommendation one and the estimated amounts for reprogramming. The
Mission notes that these are estimated funds for reprogramming but not actual savings as noted
in the draft report. Mission also believes that the estimated $2.4 million over the next five years
is subject to numerous variables; however any amount not required for freight costs will be
reprogrammed or used for other mission requirements. Also, the term “savings” is a misnomer
since the funds will be utilized for other operating or program expenses. As discussed with OIG
in the March 22, 2012 entrance meeting, USAID/Pakistan had previously instituted a new
procedure for estimating post assignment freight. A post assignment freight survey was
developed, discussed with the Travel Office and instituted. The procedure has since been
edited and approved during a meeting of the OFM/Travel Office working group held on April 19,
2012. Since the institution of the new procedure, the post assignment estimates have been fully


                                                                                                 6
                                                                                      Appendix II


supported based on survey results and the cost estimates from the employee’s mission
GSO/shipping office or from the AID/W Travel and Transportation Division (TTD) office. Five
post assignment orders have been finalized under the new procedure. The freight estimates
range from $8,000 to $17,350. OFM has also sent the survey to employees for which Travel
Authorizations had already been finalized prior to the implementation of the new procedure.
Based on the responses received, OFM will take steps to adjust the Travel Authorization freight
estimates. Accordingly, Mission reports that final action has been taken and requests closure of
this recommendation upon issuance of the final report.

Recommendation No. 2 We recommend that USAID/Pakistan review un-liquidated
obligations of an estimated $860,000 for Fiscal Years 2008, 2009, and 2010 and de-
obligate funds no longer needed.

Management comments:
Mission management concurs with the recommendation; however freight-related charges are
delayed due to various reasons, particularly storage charges. In keeping with the 2007
“Frequently Asked Questions (FAQs) on Monitoring Obligations” guidance, the Mission has
implemented a more thoughtful approach for reviewing freight charges to ensure that they are
reasonable and there is a likelihood that the funds will be disbursed in the future. As per the
2007 FAQ on Monitoring Obligations, the criteria of "once de-obligated and the charge comes
in, we can ask USAID/W for the money and upward adjust the fund cite" is not acceptable.
Although in most past cases there have been enough funds (either un-obligated carryovers,
new de-obligations, or unobligated expired funds available for upward adjustment) to cover the
request, this cannot always be guaranteed.” While this relates to unilateral-funded freight costs,
bi-lateral program funds, when de-obligated, returns to the sub-commitment level, which can be
used for other purposes or further de-sub-committed for other administrative uses.
USAID/Pakistan Office of Financial Management has completed the review of un-liquidated
obligations for Fiscal Year 2008 through FY 2010. This action has resulted in a total de-
obligation of $653,258.80; comprised of $91,941.58 from FY 2008, $240,187.87 from FY 2009,
$258,129.35 from FY 2010 and $63,000 from FY 2012 funds. Copies of all journal vouchers
and review documentation are available at the OFM office. Accordingly, Mission reports that
appropriate actions have been taken and requests closure of this recommendation upon
issuance of the final report.




                                                                                                7
